No. 19AIn the
SUPREME COURT OF THE UNITED STATES
October Term 2019
INTEL CORPORATION, IBIDEN U.S.A. CORPORATION, AND
IBIDEN COMPANY LIMITED,
Applicants / Petitioners,
v.
CONTINENTAL CIRCUITS LLC,
Respondent.
Application for an Extension of Time Within
Which to File a Petition for a Writ of Certiorari to the
United States Court of Appeals for the Federal Circuit
APPLICATION TO THE HONORABLE CHIEF JUSTICE
JOHN G. ROBERTS, JR. AS CIRCUIT JUSTICE

JOSEPH J. MUELLER
RICHARD W. O’NEILL
SARAH B. PETTY
KEVIN S. PRUSSIA
KEVIN A. GOLDMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000

DONALD B. VERRILLI JR.
Counsel of Record
GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
1155 F. Street, NW, 7th Floor
Washington, DC 20004
(202) 220-1100
donald.verrilli@mto.com
JORDAN D. SEGALL
MUNGER, TOLLES & OLSON LLP
350 S. Grand Ave., 50th Floor
Los Angeles, CA 90071
(213) 683-9208
Counsel for Applicants / Petitioners

CORPORATE DISCLOSURE STATEMENT
Intel Corporation has no parent corporation and there are no publicly held
companies that hold 10% or more of Intel’s stock.
Ibiden Co. Ltd. is the parent of Ibiden U.S.A. Corp. and is publicly traded on
the Nikkei Index. Ibiden Co. Ltd. has no parent corporation and there are no publicly
held companies that hold 10% or more of Ibiden Co. Ltd.’s stock.

1

APPLICATION FOR AN EXTENSION OF TIME
Pursuant to Rule 13.5 of the Rules of this Court, Applicants Intel Corporation,
Ibiden U.S.A. Corporation, and Ibiden Company Limited request a 46-day extension
of time within which to file a petition for a writ of certiorari, up to and including
Monday, October 28, 2019.
JUDGMENT FOR WHICH REVIEW IS SOUGHT
The judgment for which review is sought is Continental Circuits LLC v. Intel
Corporation, No. 18-1076 (Feb. 8, 2019) (attached as Exhibit 1). The United States
Court of Appeals for the Federal Circuit denied Applicants’ motion for panel rehearing and rehearing en banc on June 14, 2019 (attached as Exhibit 2).
JURISDICTION
This Court will have jurisdiction over any timely filed petition for certiorari in
this case pursuant to 28 U.S.C. § 1254(1). Under Rules 13.1, 13.3, and 30.1 of the
Rules of this Court, a petition for a writ of certiorari is due to be filed on or before
September 12, 2019. In accordance with Rule 13.5, this application is being filed
more than 10 days in advance of the filing date for the petition for a writ of certiorari.
REASONS JUSTIFYING AN EXTENSION OF TIME
This case involves claim construction, a fundamental step in patent cases that
determines the boundaries of a disputed patent. The Patent Act requires every patent to include a “specification” containing “a written description of the invention, and
of the manner and process of making and using it.” 35 U.S.C. § 112 (2006). This
Court has long held that “it is fundamental that claims are to be construed in the
light of the specification[] and both are to be read with a view to ascertaining the

2

invention.” United States v. Adams, 383 U.S. 39, 49 (1966). In order to obtain a
patent, an inventor must often explain in the specification how the purported invention represents an improvement over, or is distinguished from, the prior art. In such
cases, the patent’s claims should be construed in light of the specification, to exclude
the prior art that the inventor has distinguished. Yet the Federal Circuit in this case
applied a heightened, “exacting” standard for when it will find that the written description “disclaim[s], or disavow[s], … claim scope.” Slip Op. 11-12, 15. Under this
“exacting” standard, the Federal Circuit will find a “disavowal of claim scope” only
when “the specification [includes] expressions of manifest exclusion or restriction,
representing a clear disavowal of claim scope.” Thorner v. Sony Computer Entm’t
Am. LLC, 669 F.3d 1362, 1366 (Fed. Cir. 2012) (quoting Teleflex, Inc. v. Ficosa N. Am.
Corp., 299 F.3d 1313, 1325 (Fed. Cir. 2002)). As a result, the Federal Circuit construed the claims at issue here to be broader than the invention described in the written description, and to include the very prior art feature that the patentee had expressly criticized and purported to improve upon.
The Federal Circuit’s decision deepens a disagreement within the Federal Circuit with respect to the proper standard for evaluating disavowals of claim scope. The
Federal Circuit’s inconsistency on this fundamental aspect of patent litigation creates
significant uncertainty, undermines the public’s ability to discern the scope of a patent by reading the specification, and allows patentees to claim monopoly protection
broader than the invention actually disclosed to the public. This case represents an

3

ideal opportunity to resolve the confusion surrounding the proper standard for construing claims in light of the specification.
Applicants respectfully request a 46-day extension of time within which to file
a petition for a writ of certiorari seeking review of the complex issues raised by the
decision of the Federal Circuit in this case, up to and including Monday, October 28,
2019. The reasons for Applicants’ request are as follows:
1.

Applicants newly retained Munger, Tolles & Olson LLP in early August.

An extension of time is necessary to permit new counsel to familiarize themselves
with the record in the case and to prepare and file the certiorari petition.
2.

The extension of time is also necessary because of the press of other

business. Mr. Verrilli, Ms. Anders, and Mr. Segall are also counsel for the Financial
Oversight and Management Board for Puerto Rico in Financial Oversight and
Management Board for Puerto Rico v. Aurelius Investment, LLC, Nos. 18-1334, -1475,
-1496, -1512, and -1514, which is currently being briefed on an expedited schedule.
The Board’s combined response and reply brief in that matter is due on September
19, one week after the certiorari petition is currently due in this matter. Mr. Verrilli
will present oral argument for the Board on October 15, 2019.
In addition, Ms. Anders is counsel for the plaintiff-appellant in Johnson v.
Precythe, a capital appeal pending before the Court of Appeals for the Eighth Circuit
(No. 17-2222). The appellant’s reply brief is due on September 3, and Ms. Anders will
present oral argument for Mr. Johnson during the week of September 20.

4

A 46-day extension for the Applicants would allow their counsel the necessary
amount of time to contribute to these open matters effectively without impairing their
ability to research and draft this petition for certiorari.
CONCLUSION
For the foregoing reasons, Applicants respectfully request that this Court
grant an extension of 46 days, up to and including October 28, 2019, within which to
file a petition for a writ of certiorari in this case.
Respectfully submitted,

JOSEPH J. MUELLER
RICHARD W. O’NEILL
SARAH B. PETTY
KEVIN S. PRUSSIA
KEVIN A. GOLDMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000

DONALD B. VERRILLI JR.
Counsel of Record
GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
1155 F Street, NW, 7th Floor
Washington, DC 20004
(202) 220-1100
donald.verrilli@mto.com
JORDAN D. SEGALL
MUNGER, TOLLES & OLSON LLP
350 S. Grand Ave., 50th Floor
Los Angeles, CA 90071
(213) 683-9208

Counsel for Applicants / Petitioners
AUGUST 27, 2019

5

